                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

 Case Number: 112060036                                                                        Page 1 of 1



                   This file was opened to determine whether there is any evidence of fraud, waste, or abuse
          with respect to grantees, with significant balances in the first quarter of award close-out
          eligibility, improperly spending the remaining funds.

                        · 12, 2012, we sent a letter to
                         requesting financial information for NSF award
          requested documents on May 8, 2012.

                    Upon review, we identified the following three issues that needed to be clarified by . :

                    1) T h i s - award provided- for salaries, but. c h a r g e d - for
                       salaries.
                    2) This grant included- for participant support costs. We could not identify
                       participant supports in the documentation provided.
                    3) This award was effective



          On May 31,2012, we sent a letter t o . requesting a response to these issues. We received a
          response on June 18,2012.

                                                                                                   Program
          Director for                                                for this award. On June 25, 2012, we
          interviewed                   in connection with our review of this award. -        confirmed
          that the response provided b y . is accurate and that she was fully informed of their activities.
          She also reported that she received an email from the PI requesting guidance on how to expend
          and report on the funds. She contacted him and verbally told him how to proceed. She did not
          upload the correspondence at the time, but did so after our interview. She also forwarded a copy
          to me to include in the case file.

                  After reviewing the documents and interviewing the NSF PD, we found no evidence of
          fraud, waste or abuse with the PI improperly spending remaining grant funds. No further action
          will be taken on this case.




NSF OJG Form 2 (11 /02)
